Capital Case
No. 20-7357

IN THE SUPREME COURT OF THE UNITED STATES

RAYMOND EUGENE JOHNSON,
Petitioner,
v.
STATE OF OKLAHOMA,
Respondent.

CERTIFICATE OF SERVICE

I, Thomas D. Hird, Assistant Federal Public Defender, a member of the Bar of this
Court, pursuant to Rule 29, hereby certify that on this 19th day of April, 2021, I served a
copy of Petitioner’s Reply to Petition for Writ of Certiorari via electronic email service and
also by U.S. mail, first-class postage prepaid, addressed to Counsel for Respondent as
follows:
Jennifer Crabb, Assistant Attorney General
313 N.E. 21st Street, Oklahoma City, OK 73105
fhc.docket@oag.ok.gov
Counsel for Respondent
All parties required to be served have been served.
s/ Thomas D. Hird
Thomas D. Hird, OBA # 13580
Assistant Federal Public Defender
COUNSEL FOR PETITIONER,
RAYMOND EUGENE JOHNSON

